No. 19In The
SUPREME COURT of the UNITED STATES
MARK J. SCHWARTZ,
Petitioner
v.
CLARK COUNTY and JACQUELINE R.
HOLLOWAY,
Respondents.

CERTIFICATE OF SERVICE
This is to certify that on December 11, 2019, a
true and correct copy of the foregoing Petition for
Writ of Certiorari, and Appendix were served by
postage pre-paid first class mail on counsel of record
for all parties to the action below in this matter, as
follows:
Yolanda Givens, Esq.
Emily Elzeftawy, Esq.
Clark County District Attorney’s Office Civil Division
500 South Grand Central Pkwy.

P.O. Box 552215
Las Vegas, NV 89155-2215
Attorneys for Respondents

/S/Mary F. Chapman

Mary F. Chapman, Esq.

